                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM,

 Case Number: A06120065                                                                     Page 1 of 1



          We reviewed general ledger and supporting documents related to an award' as part of a proactive
          review. During the review, we noticed issues related to several travel transactions that required
          further explanation from the in~titution.~
                                                   Therefore, we opened an administi-ativeinvestigation.

          We requested additional information from the institution and determined the grant was charged
          for expenses related to another NSF grant.3 One grant incurring expenses related to another grant
          is a violation of OMB Circular A-21, Section C-4, "Allocable Costs."

          The institution agreed with our position and returned $2,087.82 to NSF via a Federal Cash
          Transaction Report (FCTR) adj~stment.~     Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
